WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-208

Liberty Mutual Fire Insurance Company

v. Ethan Volungis, et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
111 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

111 I am a member of the Bar of the Supreme Court of the United States.
1] I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filec
fugy a Bar member.
Signature
Date.

Septembe

(Type or print) Name

Dennis M. Prince
Mr.

Firm

❑ Mrs.

El Miss

Prince Law Group

Address

10801 W. Charleston Boulevard, Suite 560

City & State
Phone

❑ Ms.

Las Vegas, Nevada

(702) 534-7600

Zip
Email

89135

dprince@thedplg.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Theodore J. Boutrous, Jr., Gregory J. Kerwin, Julie Hamilton, and Amir C. Tayrani

